                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
                                                                                                             I



                                                                                                             1
                                                                                                             I




                                                                                                             I

                 An allegation was received that a proposal1 submitted to NSF contained text apparently
         duplicated from an uncited s ~ u r c e Examination
                                                .~           of the proposal and the alleged source showed
         that a few lines of apparently duplicated text3 appeared in the proposal without citation and
         without the use of quotation marks. The PI and three coPIs on this proposal have, between them
                                                                                                             ~
                                                                                                             I

                                                                                                             I
         all, been listed on two other proposals4 submitted to NSF. These proposals were examined and
         no evidence of duplicated text was uncovered. Further pursuit of this issue is not justified.

                   Accordingly, this case is closed.
                                                                                                             I




         '   Redacted.
             Redacted.
             Redacted.
             Redacted.



NSF OIG Form 2 (1 1/02)
